SEC.gov |  Regional Telecommunication Security
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Regional Telecommunication Security
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
REGIONAL TELECOMMUNICATION SECURITY
Audit No. 353
August 19, 2002
INTRODUCTION
The Securities and Exchange Commission (SEC), Office of the Inspector General, performed a telecommunications vulnerability audit of the voice and data telecommunications for its 11 field offices.  The primary goal of this review was to assess the effectiveness of the controls that were instituted to prevent unauthorized access to the SEC wide area network through SEC dial-up capabilities at its field office locations.
SCOPE AND OBJECTIVES
The scope of our audit consisted primarily of interviewing Commission staff and reviewing supporting documentation, among other procedures performed at Headquarters and selected field offices.  We performed our fieldwork from January 2002 through June 2002.
The scope for this review included a dial up assessment for each field offices and two field office site visits for fieldwork.  As part of performing this field work we interviewed Commission staff, reviewed selected documentation, and performed other test procedures designed to assess telecommunication controls.  We performed our fieldwork from January 2002 through June 2002.
The objectives for this telecommunications vulnerability audit were to determine whether the SEC's voice and data telecommunications (phone lines) for its 11 field offices: (1) are secure from unauthorized intrusion and misuse, (2) are vulnerable to attacks, (3) contain unknown telecommunications access points (i.e., back doors out of SEC to the Internet), and (4) have controls in place to secure digital or analog lines.
AUDIT RESULTS
Based on our review, we identified several non-material control weaknesses and provided recommendations for corrective action.   We provided senior management with an oral briefing on August 14, 2002 of our findings and recommended that management strengthen selected telecommunication related controls.  Management concurred with the findings and in some cases, we noted that corrective action had already been implemented.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us